           EVALUATION OF
         AMERICA’S CAREER KIT




EMPLOYMENT AND TRAINING ADMINISTRATION




                 REPORT NUMBER :    2E-03-390-0002
                     DATE ISSUED:   September 27, 2001
                                                TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


       1. The Overall Effectiveness of America’s Job Bank
          is Difficult to Assess . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

            a. Current AJB Performance Measures Do Not Gauge All Aspects of Output
               Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

            b. Current Performance Measures Do Not Focus on Program Outcomes . . . . . . . . . . 7

            c. AJB Performance Measures Do Not Incorporate
               Customer Satisfaction Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

       2. America’s Job Bank Has Not Fully Addressed the Compliance Concerns of DOL
          Agencies Responsible for Equal Employment Regulations . . . . . . . . . . . . . . . . . . . . . 12

            a. Office of Federal Contract Compliance Programs . . . . . . . . . . . . . . . . . . . . . . . . 13

            b. Civil Rights Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

            c. Veterans’ Employment and Training Services . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

AGENCY RESPONSE AND OIG CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX

       Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25



                                                                  i
                                  ACRONYMS

ACK     -   America’s Career Kit
AJB     -   America’s Job Bank
CFR     -   Code of Federal Regulations
CRC     -   Civil Rights Center
DOL     -   U.S. Department of Labor
EEO     -   Equal Employment Opportunity
EO      -   Executive Order
ESA     -   Employment Standards Administration
ETA     -   Employment and Training Administration
FY      -   Fiscal Year
LEP     -   Limited English Proficiency
OIG     -   Office of Inspector General
OFCCP   -   Office of Federal Contracts and Compliance Program
PY      -   Program Year
SOL     -   Solicitor of Labor
VETS    -   Veterans’ Employment and Training Service
WIA     -   Workforce Investment Act




                                     ii
                                 EXECUTIVE SUMMARY

We conducted an evaluation of the Employment and Training Administration’s (ETA)
development and implementation of America’s Career Kit (ACK). Our evaluation covered
Program Years (PY) 1997 through 2000. The evaluation was designed to assess whether ACK
has: (1) developed adequate performance measures to gauge the overall success of the program,
and (2) addressed the compliance requirements of Department of Labor equal employment
opportunity agencies.

ACK, the nation’s most powerful on-line career development resource, provides direct internet-
based access for Americans needing job search assistance, career guidance, salary data and
training and educational resources. ACK is a federal/state partnership financed through grants to
states by the U.S. Department of Labor (DOL). Since 1997, ACK has received total DOL
funding of $116.5 million, including $42.5 million for the current program year.

ACK has four components that offer unique solutions to the increasing demands of today's labor
market in meeting the specialized needs of job seekers, employers, workforce development
professionals, and the training and education community. America’s Job Bank (AJB) is one of the
four components, and is the most widely-used tool of ACK. Presently, AJB is an internet job
search tool which allows both employers and job seekers to place job listings and resumes.

 RESULTS OF EVALUATION

Our evaluation identified several concerns related to the development, implementation, and
monitoring of ACK. More specifically, the issues identified were related to the AJB component
of ACK. We did not identify any issues with the other components of ACK; therefore, we
focused our evaluation on AJB.

FINDING 1 - The Overall Effectiveness of America’s Job Bank is Difficult to Assess

We identified several areas where ETA/AJB can more effectively assess program performance.
First, current measures do not capture all aspects of Job Bank performance. AJB's performance
standard for PY 1999 is a one percent increase in the number of jobs posted on the AJB web site.
Our analysis indicates that the number of job listings on the website is increasing. However,
usage of the AJB web site is more difficult to assess; the number of server accesses ("web hits") is
declining whereas the number of times the available job database is searched is showing modest
improvement. These examples point to the need for multiple measures in order to fully assess
performance. Using the performance standard “number of jobs posted” does not give a complete
picture. We assert that program performance depends on a number of factors. In order to fully
assess the performance of AJB, ETA should consider the effect of dimensions such as usage (web
site utilization) and utility (to what degree did the web site aid individuals in finding employment).
Second, current performance measures associated with AJB address program outputs rather than
program outcomes. Current measures address the product (i.e., job listings) rather than the

                                                  iii
impact the product has on customers (i.e., finding employment). The 1998 Workforce Investment
Act (WIA) requires One-Stop Centers to collect data on program outcomes on a quarterly basis.
This data includes information regarding the number of One-Stop users that have found jobs, how
many are still employed, and how long they have held those jobs. While "self-service activities"
(e.g., AJB) are exempt from this provision under Section136(2)(A)(1), ETA should consider
these measures in developing performance measures centered on program outcomes.

Finally, WIA provisions emphasize customer service. AJB serves the needs of two types of
customers, employers and job-seekers. ETA has conducted a study of employer satisfaction, but
job seeker customer service has received significantly less attention. As job seekers are at the
center of the purpose of AJB, we recommend that ETA devote significant effort to analyzing job
seeker satisfaction. This analysis should be completed for registered as well as anonymous users.

Given that AJB is an integral tool for providing American workers the access to employment
assistance, there is a strong need for precise performance evaluation and program enhancement.
Action on these items will enable AJB to streamline program delivery, more effectively serve its
program recipients, and precisely gauge program performance.

FINDING 2 - ETA Has Not Fully Addressed the Compliance Concerns of DOL Agencies
            Responsible for Equal Employment Regulations

The current version of AJB needs to further address the compliance needs of three equal
employment opportunity agencies in the Department of Labor–the Office of Federal Contract
Compliance Programs, the Civil Rights Center, and the Veterans’ Employment and Training
Service. ETA is working with these agencies to resolve their concerns and has made some
progress. However, our evaluation identified several outstanding areas pertaining to
implementation of equal employment opportunity regulatory requirements that need to be
addressed. These areas include:

     • Insufficient instructions to employers advising them of the regulatory requirement to
       collect demographic data and analyze the impact of their selection procedures. We
       recognize that responsibility for providing information on the regulatory requirements
       must come from the enforcing agency (i.e. OFCCP). Nevertheless, as the coordinator of
       the AJB in DOL, ETA must facilitate the process with OFCCP.

     • Current procedures to allow employers and EEO agencies to easily retrieve demographic
       information needed to comply with various record keeping requirements at various stages
       of applicant site searches are awkward and time consuming.


     • It is unclear if a higher response rate for filling out the electronic tear-off sheet would be
       obtained if it is placed either before or after the registration process; ETA and the equal
       employment agencies should revise the instructions for the tear-off sheet to encourage job


                                                 iv
       seekers to provide demographic information; the veteran sub-category of Campaign
       Veterans is currently not included on the self-identification section of AJB.

     • Limited English-proficient job seekers cannot effectively access AJB.

     • Written instructions on how to use the historical demographic database, including
       information on the database’s capabilities, are not readily available.

 RECOMMENDATIONS

We recommend the following actions be taken by ETA to further enhance AJB:

1.   Conduct an on-line survey of America’s Job Bank web site users in order to determine the
     factors contributing to web site usage.

2.   Review Workforce Investment Act performance measures and other industry initiatives for
     the purpose of developing applicable outcome performance measures.

3.   Gather customer satisfaction data regarding America’s Career Kit/America’s Job Bank
     customer service.

4.   Take a proactive approach to ensure that DOL regulatory requirements associated with data
     collection and impact analysis are available to employers using AJB.

5.   Coordinate with DOL enforcement agencies (OFCCP, CRC, VETS) to identify how they
     can assist employers in meeting their EEO and Affirmative Action record keeping
     responsibilities.

6.   ETA and EEO enforcement agencies together should: (a) determine where the electronic
     tear-off sheet should be inserted during the registration process in order to obtain the
     highest response rate, and (b) revise the instructions for the tear-off sheet to encourage job
     seekers to provide demographic information needed.

7.   Provide access to AJB for limited English-proficient job seekers, in accordance with
     Executive Order 13166.

8.   Incorporate the sub-category of Campaign Veterans to AJB self-identification section.

9.   Develop and disseminate written instructions on the use of the historical demographic
     database, including information on the potential capabilities of the database.




                                                 v
 AGENCY COMMENTS AND OIG CONCLUSION

In response to the official draft report, ETA provided suggested clarifications and modifications
as well proposed corrective actions. Many of the suggested clarifications and modifications have
been incorporated into this report. All others are addressed in the “Agency Response and OIG
Conclusions” section of this report. ETA’s complete response is located in the Appendix section
of this report.




                                                vi
                                         BACKGROUND

The Employment and Training Administration (ETA) began using its discretionary funds in
program year (PY) 1994 to support the development and implementation of America’s Labor
Market Information System (ALMIS)–internet based products and services. This system,
combined with One Stop Career Center Grants, which were implemented in PY 1996, addressed a
need of both job seekers and employers–current and quality information on employment
opportunities and training programs at a locally centralized location. ALMIS is an integrated
series of Labor market information systems linked to Federal, Regional, State and local
constituents. America’s Career Kit (ACK) is a core component of ALMIS.

ACK, the nation’s most powerful on-line career development resource, provides direct internet-
based access for Americans needing job search assistance, career guidance, salary data and
training and educational resources. ACK is a federal/state partnership financed through grants to
states by the U.S. Department of Labor (DOL). ACK has four components that offer unique
solutions to the increasing demands of today's labor market in meeting the specialized needs of job
seekers, employers, workforce development professionals, and the training and education
community. The following chart illustrates the inter-connectivity of the components of ACK.


                                America’s Career Kit


                   America’s                                                 America’s
                 Service Locator                                             Job Bank



                                O * N E T - Occupational Network
                                (The common language between applications)



                    America’s                                           America’s Career
                     Learning                                              Info-Net
                    eXchange




(1) America’s Job Bank (AJB), initially created in 1996, is the most widely-used tool in
America’s Career Kit. Prior to 1996 there was a program in New York for distributing unfilled
state jobs called the Interstate Job Bank, which eventually grew into AJB. Presently, AJB is an
internet job search tool which allows both employers and job seekers to place job listings and
resumes. As of February 2001, AJB had an average of 1.3 million jobs and 475,610 resumes on
its website.


                                                   1
(2) America’s Learning eXchange (ALX) is a virtual yellow pages of training and education
resources. It offers more than 300,000 courses and 6,000 training providers to the general public.

(3) America's Career InfoNet (ACINet) is an information source for smart career decisions. An
electronic storehouse of national, state, and metro labor market data not available elsewhere.
Employment trends, wages and an analysis of prevailing salaries and living cost anywhere in the
country.

(4) America’s Service Locator (ASL) helps individuals to locate public service offices that assist
in job-seeking, career planning, locating training, unemployment issues and employee-recruitment.

The Occupational Network (O*NET) is the “common language” for these products, and appears
on diagrams as the underlying coding scheme that allows the products to talk to each other, but is
not a formal part of the ACK.

The following chart shows ETA’s total allocated funding for ALMIS ($422 million) for PYs
1997-2001, and the portion of those funds dedicated to ACK ($116.5 million) and AJB ($76
million)1.



                                        Total Budget for ALMIS
                               With Breakouts of ACK and AJB Allocations
                                                                                                     150
                                              In $ Millions



                                                                                   100


                                                             80.8




                                         48.5
                        42.5                                                                  42.5
                                                                            33.5
                                                                                         28
                                                      20.8           21.5
                                                 15
                  9.3          10 10.4
            1.5


                  1997            1998                1999                  2000              2001




                                         AJB          ACK           ALMIS




        1
           Note: For Program Year 2001, $42.5 million for America’s Career Kit and $28 million for America’s
Job Bank represent the budgeted funding levels; however these funds have not been allocated and invested in the
products to date.

                                                         2
                         PURPOSE, SCOPE AND METHODOLOGY


 PURPOSE

We conducted an evaluation of ETA’s development and implementation of ACK. Our evaluation
covered Program Years (PY) 1997 through 2000–roughly the period from July 1, 1997 through
June 30, 2001. The evaluation was designed to assess whether ACK has:
(1) developed adequate performance measures to gauge the overall success of the program, and
(2) addressed the compliance requirements of DOL equal employment opportunity agencies.

 SCOPE

During the course of our evaluation, we identified several concerns in the development,
implementation, and monitoring of AJB. We did not identify similar problems with the other
ACK components; therefore, we focused our evaluation on AJB.

 METHODOLOGY

Our methodology employed the use of qualitative methods, quantitative methods and a document
review as described below.

Qualitative Methods

We interviewed officials from the Civil Rights Center, ETA, Office of Federal Contract
Compliance Programs, Office of the Solicitor of Labor and the Veterans’ Employment and
Training Services. Representatives from these agencies offered their perspective on the strengths
and weaknesses of AJB as they relate to equal employment opportunity compliance concerns.

Quantitative Methods

America’s Job Bank Service Center provided data regarding AJB web site usage and
demographic characteristics of registered users. These data included: (1) frequency counts of
server accesses ("web hits") over a 32-month span (from May 1998 to January 2001);
(2) the number of job openings in each Occupational Information Network - Standard
Occupational Classification (O*Net-SOC) category from May 1997 to January 2001; and
(3) information regarding the required educational level of jobs posted on AJB and the number of
job openings in each category of educational attainment.




                                                3
Additionally, ETA provided information on ACK performance. These documents included
analytical overviews of ACK components, enhancement plans, and two ETA-contracted
evaluations of AJB.

Document Review

We examined documents regarding budget and program features, functionality, enhancements,
and evaluations of ACK components. ETA provided us with analytical overviews of ALX, AJB,
and America’s Career InfoNet, the ACK enhancement plan, ALX strategic plan, several monthly
reports for both ALX and ACINet, and two ETA contracted evaluations of AJB. The first
evaluation was an analysis of “e-mail feedback” provided by users of the AJB site, the second
analyzed data collected from interviews with employer-users. Additionally, we received the ACK
budgetary schedule focusing on PYs 1994-2000.

We conducted our review in accordance with the Quality Standards for Inspections published by
the President’s Council on Integrity and Efficiency.




                                              4
                            FINDINGS AND RECOMMENDATIONS


 FINDING 1 - Overall Effectiveness of America’s Job Bank is Difficult to Assess

Our evaluation of AJB identified several areas where ETA/AJB can more effectively assess
program performance. First, current measures do not capture all aspects of Job Bank
performance. AJB's performance standard for PY 1999 is a one percent increase in the number of
jobs posted on the AJB web site. We assert, however, that program performance depends on a
number of factors. In order to fully assess the performance of AJB, ETA should consider the
effect of dimensions such as usage (web site utilization) and utility (to what degree did the web
site aid individuals in finding employment).

Second, current performance measures associated with AJB address program outputs rather than
program outcomes. Current measures address the product (i.e., job listings) rather than the
impact the product has on customers (i.e., finding employment). The 1998 Workforce Investment
Act (WIA) requires One-Stop Centers to collect data on program outcomes on a quarterly basis.
This data includes information regarding the number of One-Stop users that have found jobs, how
many are still employed, and how long they have held those jobs. While "self-service activities"
(e.g., AJB) are exempt from this provision under Section136(2)(A)(1), ETA should consider
these measures in developing performance measures centered on program outcomes.

Finally, WIA provisions emphasize customer service. AJB serves the needs of two types of
customers, employers and job-seekers. While ETA has conducted a study of employer
satisfaction, job seeker customer service has received substantially less attention. As job seekers
are at the center of the purpose of AJB, we recommend that ETA devote significant effort to
analyzing job seeker satisfaction. This analysis should be completed for registered as well as
casual users (who account for the majority of site visits).

Given that AJB is an integral tool for providing American workers the access to employment
assistance, there is a strong need for precise performance evaluation and program enhancement.
Action on these items will enable AJB to streamline program delivery, more effectively serve its
program recipients, and precisely gauge program performance.

(A) Current AJB Performance Measures Do Not Gauge All Aspects of Output Performance

Data received from America’s Job Bank Service Center in New York permitted us to analyze
ETA's current performance measure for AJB. According to the ETA Fiscal Year (FY) 1999-
2004 strategic plan, the performance standard for AJB is a one percent increase in the number of
jobs posted on the AJB web site. The benchmark for comparison utilized by ETA is the number
of jobs posted on AJB in PY 1999. Figure 1 summarizes the trend in job postings. A large
number of job listings are posted on the AJB web site, and this number is increasing. Based on
this, we determined that the substantial number of job openings posted on AJB does facilitate
employment opportunities for job seekers.




                                                 5
Further analysis indicates that the number of individuals visiting the AJB web site has increased
substantially since the website’s launch, from roughly 19 million visits in May 1998, to 170 million
visits in January 2001 (see Figure 2). Conversely, since August 1999 the number of server
accesses ("web hits") has steadily declined. However, this measure does not fully capture site
usage; ETA representatives assert that alternative measures (such as number of job searches)
more effectively represent AJB usage. Efforts are currently under way to track this information;
ETA representatives provided preliminary data regarding job searches. This data indicates some
modest increases in the number of job searches. Given the limited time frame of this data,
however, no credible conclusions can be made regarding the trend in job searches. Further, ETA
officials acknowledge that growth in usage of the AJB web site has not kept pace with the number
of available positions. The increasing gap between available jobs and site usage highlights the
shortcoming of using a single performance measure.

                                               Figure 1.                                Figure 2.
                                            JOB LISTINGS                            AJB WEB SITE USAGE

                                     1200
                                                                              300

                                     1000
                                                                              250
     # Job Openings (in thousands)




                                      800
                                                                              200

                                      600
                                                                              150

                                      400
                                                                              100

                                      200
                                                                               50

                                        0
                                                                                0
                                            January 1997 - January 2001
                                                                                       May 1998 - January 2001




Relying solely on one performance measure provides a skewed assessment of performance. As
the charts above demonstrate, relying on a single measure could result in very different
assessments regarding program performance. ETA's concerns about effective ways to measure
site usage further reinforces the importance of multiple measures. Meeting goals regarding the
number of jobs posted on AJB gives some insight into the program’s performance; however, all
aspects of overall performance cannot be capture in this one measure.

The slower rate of growth in site usage identified by ETA can be attributed to the popularity and
growth of commercial sites. For example, Monster.com has experienced a compound quarterly
growth rate of 20% since 1995 (Monster.com press packet). With over 12 million current job
seeker accounts, we can reasonably assume that some of the declines in usage of AJB can be
attributed to gains by commercial sites. An evaluation commissioned by ETA makes similar
conclusions.

                                                                          6
An evaluation, completed by Technical Assistance and Training Corporation (Washington, DC),
focused on two primary weaknesses of the AJB web site. The first weakness is identified as
“difficulty of use,” and the second as “customer service problems.” Combined, these two
elements are the site’s most serious flaws. Despite high levels of market awareness, AJB has “low
brand strength,” according to the Electronic Recruiting Index 2000 report. This means that
individuals are aware of the self-directed employment services provided by AJB, but choose to
utilize other sites.

These concerns may be created or exacerbated by the “difficulty of use” of the AJB web site.
Where commercial sites often require minimal information and “number of clicks” to retrieve job
search information, the AJB’s information architecture is more cumbersome. The industry
standard is currently three clicks. AJB's information architecture currently requires four or five
clicks, depending on the specificity of the search and the options chosen. Consequently, workers
may be electing to use commercial self-directed employment resources rather than those provided
by ACK and specifically AJB.

(B) Current Performance Measures Do Not Focus on Program Outcomes

Based on observations noted in (A), AJB appears to provide access to a significant number of
jobs; however, the lack of multiple performance measures impedes the ability to make solid
conclusions regarding the overall effectiveness of AJB. These two items highlight the importance
of focused performance measurement. According to the ETA FY 1997-2002 strategic plan, the
performance goals related to ACK were: (1) increasing the number of employers listing jobs on
AJB, and (2) increasing the number of resumes in ATB (America’s Talent Bank has since been
combined into AJB). In the FY 1999-2004 ETA strategic plan, the relevant performance goals
were changed to measure increases in the number of total job openings listed with AJB. ETA
notes that these changes were included to reflect WIA requirements and could be altered further.

The current ETA performance goal relevant to AJB measures the degree to which access to
employment information is increasing. But this type of performance measure does not permit an
assessment of how well the program is addressing its core purpose. Instead, an AJB performance
measure based on increases in the number of currently available jobs focuses attention on program
outputs rather than program outcomes.

The ETA Five-Year Research Plan for FYs 2000-2004 echoes a similar theme. The Research
Plan notes that the answers to four critical questions weigh heavily in determining the
performance level of self-directed employment services. They are:




                                                7
       1
       1.    How can new technologies increase access to employment and training
             services for job seekers and employers?

       2.    What are the demographic characteristics of individuals and employers that
             use AJB?

       3.    To what extent do individuals obtain employment as a result of using AJB?

       4.    Does AJB complement or substitute for local labor exchange services?

Each of these questions deals with a particular aspect of performance measurement. Specifically,
they prompt ETA to learn who is using the program, what outcomes the program produces, and
how the program can be altered to improve performance. Current performance measures can
answer none of these questions.

ETA realizes the importance of outcome measurement. However, ETA has had difficulty in
determining appropriate ways to measure outcomes. Commercial services such as Monster.com
are not specifically interested in outcomes; they simply act as a job listing clearinghouse and
derive their profits from advertising. Due to difference in motive, there is little industry consensus
on outcome measurement. ETA has contracted a study of employment service industry trends in
order to derive and shape appropriate outcome performance measures.

One possible source of outcome measures is WIA. The implementation of WIA in 1998
substantially altered the orientation of employment services from more intensive services to an
emphasis on self-directed job search and career management through the One-Stop system. Job
seekers visiting a One-Stop Center have access to core services provided by ACK through the
internet. WIA requires that these One-Stop Centers submit quarterly reports on performance to
appropriate state agencies; these data are compiled and forwarded to ETA. The performance
measures for dislocated workers are:

       1.    The number of workers who have entered employment by the end of the first
             quarter after exit;

       2.    (Of those employed in the first quarter after exit,) the number who are
             employed in the third quarter after exit;

       3.    (Of those employed in the first quarter after exit,) the earnings in the second
             and third quarter after exist;

       4.    (Of those employed who received training services,) the number of workers
             who were employed in the first quarter after exit and received a credential
             (diploma, degree, other credential) by the end of the third quarter after exit.



                                                  8
These performance measures have been finalized and will take effect July 1, 2001, as reported in
the May 31, 2001, Notices section of the Federal Register. However, these performance
measures are intended to measure the effectiveness of the One-Stop delivery system as a whole.
In order to effectively gauge the performance of AJB, ETA should utilize WIA reporting
requirements for the purpose of developing applicable outcome performance measures.

These performance measures certainly address some aspects of self-directed employment services,
as they will primarily be provided through the One-Stop System. While AJB is exempt from WIA
reporting requirements under §136(2)(a)(1), we believe that these measures are a useful guide.
Current performance goals relate only to the overall number of jobs available. In order to
determine the effectiveness of ACK/AJB, performance measures must (as the ETA research plan
notes) determine the demographic characteristics of individuals using AJB, and the extent to
which individual job seekers obtain employment as a result of using AJB.

(C) AJB Performance Measures Do Not Incorporate Customer Satisfaction Concerns

A second feature of WIA that impacts performance measurement concerns customer satisfaction.
WIA requires quarterly reporting of customer satisfaction data to ETA. The performance levels
are measured by responses to a three-question battery that ask for job seeker reactions to the
employment and job training services received at One-Stop Centers. No customer satisfaction
measures exist with regard to AJB, even though previous evaluations noted that customer
satisfaction/service is an important issue that requires attention.

To satisfy the customer service measurement requirements of WIA, One-Stop Centers will utilize
customer satisfaction surveys. These surveys, initially, will use the American Customer
Satisfaction Index (ACSI). This index is currently used extensively in the business community,
including thirty Fortune 500 companies, and in many European countries. The index is created
through simple aggregation of scores from three specific questions targeting various aspects of
customer service. These questions are:

       1.    Overall, on a scale of 1 to 10, where “1” means “Very Dissatisfied” and “10”
             means “Very Satisfied,” how satisfied are you with the services?

       2.    Considering all of the expectation you may have had about the services, to
             what extent have the services met your expectations? “1” now means “Met
             None of My Expectations” and “10” means “Met All of My Expectations.”
       3.    Now I want you to think of the ideal program for people in your
             circumstances. How well do you think the services you received compare
             with the ideal set of services? “1” now means “Not Very Close to the Ideal.”




                                                9
Surveys will be administered to both participants and employers, providing a wealth of
information regarding program performance based on customer-reported perceptions.
Previous evaluation of “customer satisfaction” with regard to AJB has been completed, but job
seeker satisfaction has played a limited role. ETA has made progress toward addressing the
concerns of job seekers through the implementation of a "pop-up" survey on the AJB web site. As
a majority of the program's impact is derived from job seekers (i.e., individuals getting jobs), their
perceptions regarding the successes and shortcomings of AJB are invaluable measures of
performance.

Conclusion

Currently, ETA is making an effort to gauge AJB performance through program outputs. While
ETA should continue to strive for more job listings on the AJB web site, ETA should increase its
efforts to reliably measure the performance of AJB. Current performance measures do not
account for different aspects of program performance. Reliance on a single measure (number of
available jobs) hampers the future development of AJB and its ability to adapt its services to
changing economic or workforce conditions. Additionally, the current performance measure
addresses program outputs rather than program outcomes. Rather than an emphasis on whether
AJB is helping people find and get jobs, the current measure emphasizes whether enough access
to job information is available.

Finally, ETA has conducted a study of employer satisfaction, but job seeker customer service has
received significantly less attention. As job seekers are at the center of the purpose of AJB, we
recommend that ETA devote significant effort to analyzing job seeker satisfaction. This analysis
should be completed for registered as well as anonymous users.




                                    [Intentionally Left Blank]




                                                 10
Recommendations
We recommend that ETA:
1.   Conduct an on-line survey of America’s Job Bank web site users in order to determine the
     factors contributing to web site usage. Specifically:

     A. On visiting the AJB web site, include a “pop-up” window which informs visitors that
        a customer satisfaction survey is in progress, and should they be willing to participate,
        an email survey will be sent to them. Anonymity can be maintained through requiring
        only an e-mail address to send the survey.

     B. Design the survey in HTML format, or provide an HTML link in the email. This
        provides potential “interviewees” two opportunities to decline participation. The
        HTML format allows individuals to complete the survey and electronically “send” the
        information to appropriate data collection officials in a form readily convertible to
        spreadsheet or statistical software.

     C. Include questions which specifically target factors influencing site usage. For
        registered users, include a battery of questions that address reasons for registering on
        the site. Areas for assessment should minimally include the following questions:

        (1)   How did the individual find out about AJB?
        (2)   What are the individual’s demographic characteristics?
        (3)   How easy to use did the individual find the site?
        (4)   How helpful was the site in finding appropriate job listings?
        (5)   Would the individual use the AJB web site again?
        (6)    Has the individual used commercial self-directed employment sites?
        (7)   How does the AJB site compare to commercial sites?
        (8)   Did the individual find a job based on information viewed on the AJB site?

2.   Review Workforce Investment Act performance measures and other industry initiatives
     for the purpose of developing applicable outcome performance measures.

3.   Gather customer satisfaction data regarding America’s Career Kit/America’s Job Bank
     customer service.




                                               11
 FINDING 2 - ETA Has Not Fully Addressed the Compliance Concerns of DOL
             Agencies Responsible for Equal Employment Regulations

The current version of AJB needs to further address the compliance needs of three equal
employment opportunity agencies in the Department of Labor–the Office of Federal Contract
Compliance Programs, the Civil Rights Center, and the Veterans’ Employment and Training
Service. ETA is working with these agencies to resolve their concerns and has made some
progress. However, our evaluation identified several areas pertaining to implementation of equal
employment opportunity regulatory requirements. These areas include:

     • Insufficient instructions to employers advising them of the regulatory requirement to
       collect demographic data and analyze the impact of their selection procedures. We
       recognize that responsibility for providing information on the regulatory requirements
       must come from the enforcing agency (i.e. OFCCP). Nevertheless, as the coordinator of
       the AJB in DOL, ETA must facilitate the process with OFCCP.

     • Current procedures to allow employers and EEO agencies to easily retrieve demographic
       information needed to comply with various record keeping requirements at various stages
       of applicant site searches are awkward and time consuming.

     • It is unclear if a higher response rate for filling out the electronic tear-off sheet would be
       obtained if it is placed either before or after the registration process; ETA and the equal
       employment agencies should revise the instructions for the tear-off sheet to encourage job
       seekers to provide demographic information; the veteran sub-category of Campaign
       Veterans is currently not included on the self-identification section of AJB.

     • Limited English-proficient job seekers cannot effectively access AJB.

     • Written instructions on how to use the historical demographic database, including
       information on the database’s capabilities, are not readily available.

Through interviews with representatives of ETA and the EEO agencies, and a review of agency
regulations and other documents, we concluded that ETA did not initially include the EEO
agencies in the design phase of AJB. We believe that early involvement of these agencies in the
design phase would have eliminated many of the current problems, particularly those related to
regulatory requirements.

Below we summarize each of the agency’s authorizing regulations, identify the current problem
areas we identified that are associated with AJB, and make recommendations for resolution.




                                                 12
(A) The Office of Federal Contract Compliance Programs, Employment Standards
    Administration

The Office of Federal Contract Compliance Programs (OFCCP) has the responsibility of assuring
that employers doing business with the Federal Government comply with the equal employment
opportunity and affirmative action provisions of their contracts. OFCCP administers and enforces
three EEO programs: Executive Order 11246; Section 503 of the Rehabilitation Act of 1973; and
the affirmative action provisions of the Vietnam Era Veterans’ Readjustment Assistance Act of
1974.

OFCCP’s regulations require three types of record keeping regarding federal contractors’
employment processes, described below: development and maintenance of information to monitor
employee selection processes (41 CFR Part 60-3); general record retention (41 CFR 60-1.12(a));
and development and maintenance of records and analyses necessary to an affirmative action
program (41 CFR 60-1.40 and 60-2.1). If this information is not maintained by federal
contractors who are using the AJB as one of its recruitment sources, and such a contractor is
selected by OFCCP for a compliance evaluation, the agency is not able to conduct its required
analyses of selection and hiring procedures. We recognize that it is the employer’s responsibility
to collect such data, but ETA should provide a system for information retrieval that is not
cumbersome or time consuming. In other words, it should allow for easy retrieval of the data.

      (1) General Data Requirements under the Uniform Guidelines on Employee Selection
          Procedures

            Section 41 CFR 60-3.4(A) requires that each contractor “...maintain and have available
            for inspection records or other information which will disclose the impact which
            its...selection procedures have upon the employment opportunities of persons by
            identifiable race, sex, or ethnic groups...”2

            Contractors with 100 or more employees3 are more specifically required by 41 CFR 60-
            3.15A(2) to maintain and have available records for each job on applicants, hires,
            promotions and terminations (as well as any other selection decisions) by sex and by
            each minority group for whom EEO-1 reporting is required. These records must be
            sufficient to disclose the impact of the selection process on women and on each minority
            group for each job. Contractors are then required to conduct adverse impact analyses
            for women and for each minority group that constitutes 2% or more of the relevant


        2
         Such identifiable groups are defined by 41 CFR 60-3.4(B) as those groups for whom EEO-1 reporting is
required–i.e., African Americans, Hispanics, Asian/Pacific Islanders, American Indians/Alaskan Natives–along
with Whites and totals.
        3
          Contractors with fewer than 100 employees must maintain the records identified in 41 CFR 60-
3.15A(1)–e.g. the number of applicants and persons hired, promoted and terminated by sex and by each minority
group which constitutes 2% or more of the labor force in the relevant labor area. Such small employers are not
required to conduct adverse impact analyses of these data.

                                                      13
            labor area or of the applicable internal workforce. Where a contractor determines that a
            selection process has an adverse impact, evidence of validity, as described in 41 CFR
            Part 60-3 must also be maintained and made available for review during a compliance
            evaluation by OFCCP.

      (2) General Record Retention Requirements

            The general record retention regulations at Section 60-1.12(a) are applicable to all
            contractors covered by Executive Order 11246, as amended (except those exempted
            under 41 CFR 60-1.5). As such, contractors are required to retain any personnel or
            employment record made or kept by the contractor, including records pertaining to
            hiring, applications and resumes, tests and test results, and interview notes. Contractors
            with at least 150 employees and a Government contract of at least $150,000 must keep
            such records for not less than two years from the date a record is made or the date of
            the personnel action it concerns, whichever occurs later. Contractors that employ fewer
            than 150 employees and/or that do not have a Government contract of at least $150,000
            must keep such records for a period of one year.

      (3) Affirmative Action Record Keeping Requirements

            Those contractors required to develop a written affirmative action program (i.e. those
            with at least 50 employees and at least one contract valued at $50,000), must also
            collect and maintain information related to recruitment and hiring processes. They must
            also analyze their hiring practices for the past year, including recruitment sources (41
            CFR 60-2.17(b), (c), (d)). Additionally, they must compile and maintain support data
            for the analyses performed in the development of the Affirmative Action Program.
            Applicant flow4 data should include applicants identified through the Internet, as well as
            more traditional recruitment sources.

Compliance Requirements Related to AJB

Based on these requirements, we concluded there are three major outstanding compliance
requirement areas associated with OFCCP enforcement that have not been resolved in the current
version of AJB.

      (1) The AJB should include instructions to employers informing them of their record
          keeping obligations, and the need to conduct adverse impact analyses when applicable.




        4
          Applicant flow log is defined in Chapter 1 of the Federal Contract Compliance Manual as a
“chronological compilation of applicants for employment or promotion, showing the persons categorized by race,
sex, and ethnic group, who applied for each job title ...during a specific period.”

                                                      14
     (2) We found that federal contractors who are using the AJB must go through a series of
         steps in order to collect the demographic information required for each stage of their
         applicant search. The process for retrieving the information is not user friendly. First
         the employer must send a written letter to the AJB service center in New York,
         specifying its search criteria and requesting the pertinent data for each search it has
         conducted, then the service center normally takes several weeks to send a written reply
         to the employer.

         With over 100,000 supply and service contractor establishments who may fill dozens, or
         even hundreds, of job vacancies each year, this system clearly is not efficient and will
         become an even greater problem in future years. Also, we note that in addition to the
         Federal contractors for whom OFCCP has responsibility, there are millions of other
         business that are not Federal contractors but are subject to the Uniform Guidelines on
         Employee Selection Procedures. These business are also required to maintain the
         required record keeping information.

         We believe that this retrieval system is also inadequate to meet the compliance needs of
         OFCCP when conducting an evaluation. They would be faced with the same challenges
         as the employer in attempting to retrieve the required data in order to verify adverse
         impact in the selection process.

     (3) The electronic tear-off sheet that includes the request for the demographic information
         of race, sex and disability status is at the conclusion of the resume process, and does not
         encourage users to provide pertinent information. The request for information on
         veteran status is a mandatory field at the beginning of the job seeker’s resume posting
         process. All of the demographic information should be presented together and job
         seekers should be encouraged to provide the information.

(B) Office of the Assistant Secretary of Administration and Management
    Civil Rights Center

The Civil Rights Center (CRC) is a component of the Office of the Assistant Secretary of
Administration and Management. CRC enforces several Federal statutes and regulations that: (1)
prohibit discrimination in DOL funded programs and activities and (2) prohibit discrimination on
the basis of disability by certain public entities and in DOL assisted activities. CRC enforces DOL
policies, practices, and procedures under Title VI of the Civil Rights Act of 1964,
Title II of Americans with Disabilities Act of 1990, Section 504 of the Rehabilitation Act of 1973,
Section 508 of the Rehabilitation Act of 1973, Age Discrimination Act of 1975, Title IX of the
Education Amendments of 1972, Section 188 of the Workforce Investment Act of 1998,
Executive Order 13160, and Executive Order 13166.




                                                15
CRC is involved in the continuing development and implementation of AJB to ensure that
neither AJB nor its users (e.g., United States Employment Service), discriminate on a prohibited
basis, and that all job seekers have equal access to AJB.

Compliance Requirements Related to AJB

CRC identified several areas of concern similar to those listed above for OFCCP – such as record
keeping needs of all employers, demographic information on applicants. In addition to those
issues we note one additional outstanding concern in AJB that falls under the purview of the
CRC–the lack of access that non-English speaking applicants have to the system. These
applicants are referred to as Limited English Proficient.

In 1998, CRC urged ETA to accommodate potential AJB users who have Limited English
Proficiency (LEP), based on the requirements of Title VI of the Civil Rights Act of 1964. Also,
Executive Order 13166 (EO 13166), signed in August 2000, further emphasized the importance
of this accommodation.

Anything a federal agency does, including all contact with the public, falls within the scope of the
term federally assisted programs or activities. The definition of federally assisted programs or
activities used under EO 13166 is consistent with the definition provided under the regulations for
application of Section 504 of the Rehabilitation Act of 1973. EO 13166 requires all federal
agencies take reasonable steps to provide meaningful access to their own federally assisted
programs or activities.

ETA has made attempts to integrate LEP standards in ACK/AJB since 1998. ETA, in
conjunction with the Interstate Conference of Employment Security Agencies/National
Association of State Workforce Agencies, identified problems that existed in providing services to
LEP individuals at both the national and state levels through the Public Electronic Labor
Exchange initiative, known as PELEX. Several options were discussed in meetings between CRC
and ETA. ETA made a substantial effort to address this issue through the implementation of the
Babblefish language translation software–a translation service that removes language barriers
across the World Wide Web, which was added to previous versions of the National AJB site.
Unfortunately, ETA determined that Babblefish was problematic because it could not translate
“dynamic” web pages (e.g., if an LEP job-seeker was to enter a resume into the system in a
language other than English, access to the resume would be limited. The resume would only be
translated and accessed if an employer was searching the website in the language that the resume
was entered).

As of the date of this report, ETA has reactivated Babblefish until a system called Websphere is
implemented in the 2002 AJB update. Both ETA and CRC anticipate that implementation of
Websphere will resolve the LEP issue.



                                                16
(C) The Veterans’ Employment and Training Service

The Veterans’ Employment and Training Service (VETS) is charged with the responsibility to
assist veterans, reservists, and National Guard members in securing employment, including the
rights and benefits associated with employment, through existing programs, the coordination and
merger of programs, and the implementation of new programs. In addition to other
responsibilities, the VETS resolves claims by veterans, reservists, and National Guard members
under the Uniformed Services Employment and Reemployment Rights Act, and investigates
alleged veteran preference violations. Additionally, they provide employment and training
services to eligible veterans through grants to States, local governments, and non-profit agencies.
VETS are mandated to provide services as outlined in Title 38 of the United States Code (USC)
Chapter 41 sections 4101, 4102 and 4212, as well as, 20 CFR Chapter IX Part 1000-1009.


Compliance Requirements Related to AJB

     (1) Demographic information on AJB does allow job seekers to self-identify as a veteran.
         However, VETS, in accordance with 5 USC Sec. 2108, requires that job seekers be
         allowed to further self-identify as Campaign Badge Veterans. This sub-category has not
         been included on AJB. In August 2001, ETA provided documentation that outlined its
         plan to add this sub-category to its next AJB version, scheduled for September 2001.

     (2) ETA has completed the process of creating a demographic historical database and has
         provided a physical demonstration of the database to VETS. However, no written
         instructions have been provided to potential users on how to utilize the database.




                                   [Intentionally Left Blank]




                                                17
Recommendations

We recommend that ETA:

4.   ETA, with EEO enforcement agencies, must take a proactive approach to ensure that
     DOL regulatory requirements associated with data collection and impact analysis are
     available to employers using AJB.

5.   ETA should coordinate with DOL enforcement agencies (OFCCP, CRC, VETS) to
     identify how they can assist employers in meeting their EEO and Affirmative Action
     record keeping responsibilities.

6.   ETA and EEO enforcement agencies together should: (a) determine where the electronic
     tear-off sheet should be inserted during the registration process in order to obtain the
     highest response rate, and (b) revise the instructions for the tear-off sheet to encourage
     job seekers to provide demographic information needed.

7.   Provide access to AJB for limited English-proficient job seekers, in accordance with
     Executive Order 13166.

8.   Incorporate the sub-category of Campaign Veterans to AJB self-identification section.

9.   Develop and disseminate written instructions on the use of the historical demographic
     database, including information on the potential capabilities of the database.




                                              18
                     AGENCY RESPONSE AND OIG CONCLUSIONS

ETA's Response to Executive Summary

•    Finding 1 - The Overall Effectiveness of America's Job Bank is Difficult to Assess

"We still believe that this should be reworded. This issue is not confined to America's Job Bank ,
but is a generic problem inherent in all web-based, self-service systems. This title makes it
sound as though other such systems have addressed and resolved these issues, while AJB has
done nothing. This is not the case. While it is true that the current performance measures used
in conjunction with AJB don't focus on outcome measures, we have met or exceeded the
measures that have been used. The substantive issue that needs to be addressed is that there are
no generally accepted performance measures for web-based self-service systems, and those used
for staff-assisted do not fit and cannot be used. To be fair, AJB has been a leader in trying to
address this issue."

OIG Conclusion for Executive Summary

We believe our conclusion that the overall effectiveness of America's Job Bank is difficult to
assess is accurate. This conclusion is based on evidence that usage is difficult to determine,
existing performance measures do not adequately address web site utility, and there are concerns
regarding customer service issues. We do not believe that one can infer from the title that other
systems have addressed and resolved these issues while AJB has done nothing. Based on this, we
are leaving the title of Finding One as written.

FINDING ONE RECOMMENDATIONS

RECOMMENDATION ONE

ETA’s Response Recommendation One:

•    Recommendation 1:        Conduct an on-line survey of America’s Job Bank web site
                              users in order to determine the factors contributing to web site
                              usage. Specifically:

       A. On visiting the AJB web site, include a “pop-up” window which informs visitors
          that a customer satisfaction survey is in progress, and should they be willing to
          participate, an email survey will be sent to them. Anonymity can be maintained
          through requiring only an e-mail address to send the survey.

       B. Design the survey in HTML format, or provide an HTML link in the email.
          This provides potential “interviewees” two opportunities to decline
          participation. The HTML format allows individuals to complete the survey and


                                               19
           electronically “send” the information to appropriate data collection officials in a
           form readily convertible to spreadsheet or statistical software.

       C. Include questions which specifically target factors influencing site usage. For
          registered users, include a battery of questions that address reasons for
          registering on the site. Areas for assessment should minimally include the
          following questions:

         (1)   How did the individual find out about AJB?
         (2)   What are the individual’s demographic characteristics?
         (3)   How easy to use did the individual find the site?
         (4)   How helpful was the site in finding appropriate job listings?
         (5)   Would the individual use the AJB web site again?
         (6)    Has the individual used commercial self-directed employment sites?
         (7)   How does the AJB site compare to commercial sites?
         (8)   Did the individual find a job based on information viewed on the AJB site?

"We do not agree with this recommendation. Doing an on-line survey is very expensive and
time-consuming and feel that there are better and less costly ways to gain this same type of
information, namely focus groups, e-mail feedback and other means of user input. Again, it
makes little sense to spend more money to determine a customer's satisfaction with a service,
than it does to provide the service itself."

OIG Conclusion

We consider this matter unresolved. In order to attain the goal of "becoming a market leader in
self-directed employment services," ETA must be able to determine: (1) how useful individuals
find the material on the AJB web site; and (2) how satisfied individuals were with various service
aspects (e.g., support, troubleshooting). Site utility and customer service should therefore be
paramount concerns. ETA should make concerted efforts to further study these items. While we
believe that a web survey is the best option considering the costs and benefits, we acknowledge
that other avenues for obtaining this information are equally valid. To this end, ETA should
provide a plan detailing their proposed actions. The plan should include: (1) details of the
approach to be used (e.g., phone survey, mail survey, focus group, sample size, etc); (2) strategies
for addressing concerns listed in Recommendation 1:C(1)-C(8); (3) a copy of the data collection
instrument (survey or interview questions, interviewer protocol); and (4) a project timeline. This
plan should be submitted to this office no later than December 17, 2001.




                                                20
RECOMMENDATION TWO

ETA’s Response to Recommendation Two

•    Recommendation 2:        Review Workforce Investment Act performance measures and
                              other industry initiatives for the purpose of developing
                              applicable outcome performance measures.

"As pointed out in our previous comments to your office, self-service systems are exempted from
the core WIA performance measures. However, we agree with your recommendation as it has
been rewritten and have already begun work on this recommendation."

OIG Conclusion

We consider this recommendation to be resolved. It will be closed upon receipt of a status report
to this office by December 17, 2001, indicating actions taken to date and planned future actions.

RECOMMENDATION THREE

ETA’s Response to Recommendation Three

•    Recommendation 3:        Gather customer satisfaction data regarding America’s Career
                              Kit/America’s Job Bank customer service.

"We agree with this recommendation, although it lacks specificity. We need to begin work on
determining what type of customer satisfaction data is relevant to the electronic tools."

OIG Conclusion

We consider this recommendation to be resolved. It will be closed upon receipt of a status report
to this office by December 17, 2001, indicating specific determinations regarding relevant
customer service data, actions taken to obtain this data, and planned future actions.

FINDING TWO RECOMMENDATIONS

RECOMMENDATION FOUR

ETA’s Response to Recommendation Four

•    Recommendation 4:        ETA, with EEO enforcement agencies, must take a proactive
                              approach to ensure that DOL regulatory requirements
                              associated with data collection and impact analysis are
                              available to employers using AJB.


                                               21
“It is not appropriate for ETA or AJB to advise employers of an OFCCP regulatory
requirement. Per the February 22, 2000 agreement, we agreed to provide a link to an OFCCP
web page and label it ‘... to find out more about your responsibilities as a Federal Contractor,
click here.’ That link exist today in the employers’ registration process, and comes up whenever
a registering employer self-identifies as a federal contractor. We believe this effectively
addresses this issues. We believe we have met the spirit of this finding and it should be
removed”.

OIG Conclusion

We consider this recommendation unresolved. ETA should notify OFCCP in writing that OFCCP
is to ensure that information provided in their link is current and adequately addresses record-
keeping responsibilities of Federal Contractors. In order to close the recommendation, ETA
should submit to this office a copy of their correspondence to OFCCP and the response received
from them by December 17, 2001, detailing the proposed actions to be taken.

RECOMMENDATION FIVE

ETA’s Response Recommendation Five

•    Recommendation 2:        ETA should coordinate with DOL enforcement agencies
                              (OFCCP, CRC, VETS) to identify how they can assist
                              employers in meeting their EEO and Affirmative Action record
                              keeping responsibilities.

“We agree with this recommendation, and have launched an effort to identify how we can assist
employers to meet their EEO and Affirmative Action record keeping responsibilities called the
EEO/AA Tools Workgroup. Participating in this effort are representatives from OFCCP, Equal
Employment Opportunity Commission, Civil Rights Center, and VETS.”

OIG Conclusion

We consider this recommendation to be resolved. It will be closed upon receipt of a status report
to this office by December 17, 2001, indicating actions taken to date and planned future actions.

RECOMMENDATION SIX

ETA’s Response Recommendation Six

•    Recommendation 6: ETA and EEO enforcement agencies together should:
     (a) determine where the electronic tear-off sheet should be inserted during the
     registration process in order to obtain the highest response rate, and (b) revise the
     instructions for the tear-off sheet to encourage job seekers to provide demographic
     information needed.

                                               22
“We don’t believe that moving the tear-off sheet to the beginning of the process will increase the
response rate, but agree to look in to what location would provide the best response rate.
However, there is a cost associated with moving this information in AJB, and we would object to
moving it back to the end of the process if the move to the front of the process netted poorer
results. In addition, the language to “encourage” job seekers to provide the demographic
information was provided by the enforcement agencies requesting the information, we are not
opposed to changing the language if they provide us with language they think would better suit
this purpose.”

OIG Conclusion

We consider this recommendation to be resolved. ETA, in conjunction with EEO enforcement
agencies, should determine the most effective placement for the electronic tear off sheet. ETA
should also request in writing that appropriate EEO enforcement agencies review existing
language to encourage job searches to provide demographic information and provide an update to
ETA if necessary. Please submit a status report outlining the actions taken by ETA by
December 17, 2001.

RECOMMENDATION SEVEN

ETA’s Response Recommendation Seven

•    Recommendation 7:        Provide access to AJB for limited English-proficient job
                              seekers, in accordance with Executive Order 13166.

“ It should be noted that the free online translator operated by Alta Vista known as Babel Fish,
which was previously on the AJB website, has been reactivated and is currently available for
translation services. It was taken down when we decided to implement a better solution to the
problem using our new enterprise software form IBM called Websphere which includes intrinsic
support for multiple languages. However, it is taking longer to implement Websphere than
originally planned, so that Alta Vista option has been reactivated and will remain on the web site
until Websphere can be fully implemented. “

OIG Conclusion

We consider this recommendation to be resolved. It will be closed when ETA provides
information to this office on IBM’s Websphere enterprise software. The information should be
provided no later than July 16, 2002.




                                               23
RECOMMENDATION EIGHT

ETA’s Response to Recommendation Eight

•    Recommendation 8:         Incorporate the sub-category of Campaign Veterans to AJB
                               self-identification section.

“We agree with this recommendation. Per our agreement with the VETS, the Campaign
Veterans category will be added in the September release. However, there is the following point
of clarification; the veterans’ information is not currently part of the “electronic tear-off sheet”
and will not be in the September release. It is kept separate format the other information, as we
are required by the law to ask about veteran status and collect this information, but we do not
have th authority to require the collection of demographic information.”

OIG Conclusion

We consider this recommendation resolved. It will be closed when the update is complete and
such action is reported to this office no later than December 17, 2001.

RECOMMENDATION NINE

ETA’s Response to Recommendation Nine

•    Recommendation 9:         Develop and disseminate written instructions on the use of the
                               historical demographic database, including information on the
                               potential capabilities of the database.

“We are assuming that since you removed ‘interested parties’ from this recommendation per our
last round of comments that you are referring to the enforcement agencies. If this is the case we
believe that we have already provided this information to the enforcement agencies, but we can
repeat this demonstration, in necessary, as well as provide a written memo documenting the
procedures. If this assumption is incorrect, and a broader audience is intended, we don’t agree
with this recommendation.”

OIG Conclusion

We concur with ETA’s proposed action and consider the recommendation to be resolved. It will
be closed when ETA provides information regarding the demonstration presentation and written
procedures. Please provide the information no later than December 17, 2001.




                                                 24
       APPENDIX
COMPLETE AGENCY RESPONSE




           25
